NATIONAL CREDIT UNION ADMINISTRATION
    OFFICE OF INSPECTOR GENERAL

         MATERIAL LOSS REVIEW
                  OF
         CLEARSTAR FINANCIAL
             CREDIT UNION
            Report #OIG-10-14
            September 22, 2010




             William A. DeSarno
             Inspector General



                 Released by:




              James W. Hagen
           Deputy Inspector General
CONTENTS


Section                                                                                                                Page



ACRONYMS……………………………………………………………………………….……ii
EXECUTIVE SUMMARY ................................................................................................ 1
 Background ................................................................................................................... 4
 History of Clearstar Financial Credit Union ................................................................... 4
OBJECTIVES, SCOPE AND METHODOLOGY ............................................................. 7
RESULTS IN DETAIL ..................................................................................................... 9
  A. Why Clearstar Financial Credit Union Failed ........................................................... 9
  B. Nevada Financial Institutions Division and NCUA Supervision of
     Clearstar Financial Credit Union ............................................................................ 16
APPENDICES
  A Examination History ............................................................................................... 24
  B Management's Comments……………………………………………………………....31




                                                                                                                                i
ACRONYMS

AMAC     Asset Management & Assistance Center (Austin TX)
ARDO     Associate Regional Director Operations
ARDP     Associate Regional Director Programs
C&D      Cease and Desist Order
CUDL     Credit Union Direct Lending Program
CUMIS    Credit Union Member Insurance Society
DDs      Division Director
DMS      Division of Management Services
DOI      Division of Insurance
DOR      Document of Resolution
DOS      Division of Supervision
DSA      Director of Special Actions
E&I      Examination & Insurance
EIC      Examiner In Charge
EX       Examiner
FPR      Financial Performance Reports
FOM      Field of Membership
Guide    NCUA Examiner's Guide
Manual   Region V Supervision Policy Manual
MBL      Member Business Loan
NFID     Nevada Department of Business and Industry Financial Institutions Division
OED      Office of Executive Director
ORD      Office of Regional Director
PACA     Office of Public and Congressional Affairs
PCO      Problem Case Officer
PWL      Preliminary Warning Letter
RD       Regional Director
RO       Regional Office
SSA      State Supervisory Authority
SE       Supervisory Examiner
SME      Subject Matter Expert
TDR      Troubled Debt Restructure




                                                                                 ii
Material Loss Review – Clearstar Financial Credit Union
OIG-10-14

EXECUTIVE SUMMARY

The National Credit Union Administration (NCUA) Office of Inspector General (OIG)
contracted with Moss Adams LLP to conduct a Material Loss Review (MLR) for the
Clearstar Financial Credit Union (Clearstar or the Credit Union). We reviewed
Clearstar to: (1) determine the cause(s) of the Credit Union‟s failure and the resulting
estimated $12.2 million loss to the National Credit Union Share Insurance Fund
(NCUSIF) (2) assess NCUA‟s supervision of the Credit Union, and (3) make
appropriate recommendations to prevent future losses. To achieve these objectives,
we analyzed NCUA and Nevada Department of Business and Industry, Financial
Institutions Division1 (NFID) examination and supervision reports and related
correspondence, interviewed management and staff from NCUA Regions I & V, and
reviewed NCUA guidance. We also reviewed Regions I & V policies and
procedures, NCUA 5300 Call Reports, and NCUA Financial Performance Reports
(FPR).

We concluded Clearstar failed because its Board and management did not
implement proper risk management policies and procedures related to credit and
concentration risk. Specifically, management originated and funded a significant
amount of loans that were both poorly underwritten and to many borrowers that had
poor credit histories. Because of this, over time, the Credit Union‟s loan portfolio
increased in credit risk.

Additionally, the Credit Union used modified borrower classification matrixes that
allowed them to approve loans to borrowers that were of a much higher credit risk
than industry standards would expect. Also, in late 2008, management began
extending an inordinate number of delinquent loans when it became obvious
borrowers did not have the ability to meet their obligations. This was done to stem
the flow of collection issues the Credit Union was facing; despite very little evidence
borrowers would have the ability to meet their obligations when the extension period
expired.

Finally, the Credit Union focused a significantly large portion of its loan portfolio on
new and used vehicle loans originated both internally by Credit Union personnel, as
well as externally through an indirect loan program. Clearstar‟s indirect loan
program originated loans from new and used auto and recreational vehicle (RV)
dealerships.2 This program coupled with liberal underwriting policies enabled the
Credit Union to generate a high volume of new loans. As more of these loans were
originated, Clearstar‟s default rate increased as well. When coupled with the


1
 The NFID is Nevada‟s State Supervisory Authority.
2
 An indirect auto loan is where a car or RV dealership acts as an intermediary between the financial institution
and the borrower.


                                                                                                                   1
Material Loss Review – Clearstar Financial Credit Union
OIG-10-14

economic recession that began in 2008, the Credit Union‟s failure was largely
unavoidable.

NFID and NCUA examiners determined, and we agree, that Clearstar management:

      Significantly increased credit risk through weak underwriting standards and
       poor collection practices.

      Created concentration risk by allowing a large portion of their loan portfolio to
       be concentrated in new and used vehicle loans.

We concluded that despite examiners‟ concerns and recommendations for
improvement, management‟s inability to effectively manage the risks created by their
own decisions led to Clearstar‟s failure.

Although NFID and NCUA examiners identified the issues that ultimately led to
Clearstar‟s failure, they failed to require management and the Board to make
substantive changes in their lending practices. As a result, the credit and
concentration risk in the Credit Union‟s loan portfolio continued to increase as more
poor quality loans were originated.

We concluded a more diligent and focused effort by the examiners would have
forced management to act more quickly and aggressively to resolve the underlying
loan quality issues. Also, quarterly monitoring of the Credit Union through analysis
of the Credit Union‟s Call Reports did not detect the increasing levels of delinquent
loans and loan charge offs between the 2006 and 2008 examinations. Examiners
did not take a strong stance with the Credit Union related to the high concentration
of new and used vehicle loans generated through its indirect auto loan program. As
a result, we determined examiners missed opportunities to prevent the failure of
Clearstar and, at the very least, mitigate the loss to the NCUSIF.

This report makes one recommendation, as well as five observations. However, the
OIG plans to issue an MLR capping report with recommendations based on issues
raised in this report as well as the other nine MLRs conducted by the OIG. As
resources allow, the OIG may also conduct more in-depth reviews of specific
aspects of the NCUA‟s supervision program and also make recommendations, as
warranted.

Auditor observations made as a result of our review of Clearstar‟s failure include:

      Examiners need reminded of the importance of understanding that DORs are
       to be developed to outline plans to reduce areas of unacceptable risk, with




                                                                                        2
Material Loss Review – Clearstar Financial Credit Union
OIG-10-14

       particular emphasis on the types of safety and soundness concerns that were
       clearly present in the years leading up to Clearstar‟s failure.

      NCUA‟s off-site monitoring process could be improved by placing more
       emphasis on quarterly monitoring of 5300 Call Reports and better
       documentation of the analysis and specific procedures performed during
       examiner quarterly reviews of 5300 Call Reports.

      Inconsistencies over examination documentation and lax review processes
       warrant consideration of a documented secondary review by the Supervisory
       Examiner of the final CAMEL ratings.

      The development of a stronger more specific process to better identify,
       analyze, and monitor loan concentrations during examinations, as well as
       between examinations.

      Re-emphasize to examiners the importance of evaluating management‟s due
       diligence over new and fast growing programs, as well as other areas of
       emphasis, to ensure appropriate analysis was considered by management
       and to provide support for examiner ratings.

We also made one recommendation to NCUA management requiring examiners to
document and retain all documentation on significant findings from prior
examinations until such time the finding is satisfactorily remediated. Management
agreed with our recommendation. We have included management‟s comments in
their entirety in Appendix B.

We appreciate the effort, assistance, and cooperation NCUA management and staff
provided to us during this review.




                                                                                    3
Material Loss Review – Clearstar Financial Credit Union
OIG-10-14

Background

The National Credit Union Administration (NCUA) Office of Inspector General (OIG)
contracted with Moss Adams LLP to conduct a Material Loss Review (MLR) for the
Clearstar Financial Credit Union (Clearstar or the Credit Union), as required by
Section 216 of the Federal Credit Union Act (FCU Act), 12 U.S.C. 1790d(j).3
Clearstar was a federally insured state chartered credit union, headquartered in
Reno, Nevada. Clearstar was located in NCUA‟s Region V until January 2009 when
through an NCUA restructuring, the state of Nevada was transferred to NCUA‟s
Region I.

History of Clearstar Financial Credit Union

Clearstar Financial Credit Union was originally chartered in 1949 as the Reno
Teachers Federal Credit Union, serving Reno School District #10 employees and
their families. In 1975, the name was changed to Sierra Schools Federal Credit
Union and the charter expanded to nine more Nevada counties as well as other
teacher associations. Sierra Schools FCU became a state chartered institution in
1997 and, eight years later in 2005, a 13 county community charter was approved
and the name was changed to Clearstar Financial Credit Union. Clearstar served
about 16,000 members through five branches in the Reno-Sparks, Nevada area.

In June 2008, the Nevada Department of Business and Industry, Financial
Institutions Division (NFID) and NCUA conducted a joint examination of Clearstar
and concluded the Credit Union was in an “unsatisfactory condition” with a CAMEL
composite rating of 4. The exam cited several “Document of Resolution” (DOR)
matters for management to address.

In April 2009, the NFID issued Clearstar a Cease and Desist (C&D) order placing
restrictions on its lending activities, dividend rates paid on shares, share drafts, and
share certificates, as well as requirements on more extensive liquidity monitoring.

On September 25, 2009, Clearstar was placed into liquidation by NFID and
appointed the NCUA Board as Liquidating Agent. The NCUA Board accepted this
appointment and in its capacity entered into a Purchase and Assumption (P&A)
Agreement with United Federal Credit Union. The loss to the National Credit Union
Share Insurance Fund (NCUSIF) is estimated at $12.2 million; however, the final
cost to the NCUSIF will not be known until all assets are sold.



3
 On July 21, the President signed into law the Wall Street Reform and Consumer Protection Act of
2010, raising the threshold for future MLRs to $25 million.



                                                                                                   4
Material Loss Review – Clearstar Financial Credit Union
OIG-10-14

NCUA Examination Process

Total Analysis Process

NCUA uses a total analysis process that includes: collecting, reviewing, and
interpreting data; reaching conclusions; making recommendations; and developing
action plans. The objectives of the total analysis process include evaluating
CAMEL4 components, and reviewing qualitative and quantitative measures.

NCUA uses a CAMEL Rating System to provide an accurate and consistent
assessment of a credit union‟s financial condition and operations. The CAMEL
rating includes consideration of key ratios, supporting ratios, and trends. Generally,
the examiner uses the key ratios to evaluate and appraise the credit union‟s overall
financial condition. During an examination, examiners assign a CAMEL rating,
which completes the examination process.

Examiner judgment affects the overall analytical process. An examiner‟s review of
data includes structural analysis,5 trend analysis,6 reasonableness analysis,7
variable data analysis,8 and qualitative data analysis.9 Numerous ratios measuring a
variety of credit union functions provide the basis for analysis. Examiners must
understand these ratios both individually and as a group because some individual
ratios may not provide an accurate picture without a review of the related trends.

Financial indicators such as adverse trends, unusual growth patterns, or
concentration activities can serve as triggers of changing risk and possible causes
for future problems. NCUA also instructs examiners to look behind the numbers to
determine the significance of the supporting ratios and trends. Furthermore, NCUA
requires examiners to determine whether material negative trends exist; ascertain
the action needed to reverse unfavorable trends; and formulate, with credit union
management, recommendations and plans to ensure implementation of these
actions.


4
  The acronym CAMEL is derived from the following components: [C]apital Adequacy, [A]sset Quality,
[M]anagement, [E]arnings, and [L]iquidity/Asset-Liability Management.
5
  Structural analysis includes the review of the component parts of a financial statement in relation to the
complete financial statement.
6
  Trend analysis involves comparing the component parts of a structural ratio to itself over several periods.
7
  As needed, the examiner performs reasonableness tests to ensure the accuracy of financial performance
ratios.
8
  Examiners can often analyze an examination area in many different ways. NCUA‟s total analysis process
enables examiners to look beyond the “static” balance sheet figures to assess the financial condition, quality of
service, and risk potential.
9
  Qualitative data includes information and conditions that are not measurable in dollars and cents, percentages,
numbers, etc., which have an important bearing on the credit union‟s current condition, and its future. Qualitative
data analysis may include assessing lending policies and practices, internal controls, attitude and ability of the
officials, risk measurement tools, risk management, and economic conditions.


                                                                                                                 5
Material Loss Review – Clearstar Financial Credit Union
OIG-10-14

Risk-Focused Examination Program

In 2002, NCUA adopted a Risk-Focused Examination (RFE) Program. Risk-focused
supervision procedures often include both off-site and on-site work that includes
reviewing off-site monitoring tools and risk evaluation reports. The RFE process
includes reviewing seven categories of risk: Credit, Interest Rate, Liquidity,
Transaction, Compliance, Strategic, and Reputation. Examination planning tasks
may include: (a) reviewing the prior examination report to identify the credit union‟s
highest risk areas and areas that require examiner follow-up, and (b) analyzing Call
Reports and direction of the risks detected in the credit union‟s operation and on
management‟s demonstrated ability to manage those risks. A credit union‟s risk
profile may change between examinations. Therefore, the supervision process
encourages the examiner to identify those changes in profile through:

        Review of Call Reports,

        Communication with credit union staff,

        Knowledge of current events affecting the credit union.

On November 20, 2008, the NCUA Board approved changes to the risk-based
examination scheduling policy, creating the 12-Month Program10. NCUA indicated
these changes were necessary due to adverse economic conditions and distress in
the nation‟s entire financial structure, which placed credit unions at greater risk of
loss. NCUA stated that the 12-Month Program will provide more timely relevant
qualitative and quantitative data to recognize any sudden turn in a credit union‟s
performance.

Supervision of Federally Insured State-Chartered Credit Unions (FISCU)

NCUA‟s statutory authority and its guidelines indicated the agency has the legal and
fiduciary responsibility to ensure the safety of the NCUSIF. Federally insured state-
chartered credit unions receive the same amount of insurance coverage under the
NCUSIF as federally chartered credit unions. Therefore, FISCUs are subject to the
same review of risks as other credit unions. The two most common types of on-site
FISCU reviews are an independent insurance review and a joint
examination/insurance review. In joint examination/insurance reviews, both NCUA
and the State Supervisory Authority (SSA) focus on risk issues (including safety and
soundness issues), while the state examiner focuses additionally on regulatory
concerns. However, during an independent insurance review, NCUA examiners limit


10
  The 12-month program requires either an examination or a material on-site supervision contact within a 10 to
14 month timeframe based on risk-based scheduling eligibility.


                                                                                                                 6
Material Loss Review – Clearstar Financial Credit Union
OIG-10-14

their role to the review and analysis of risks to the NCUSIF only, rather than a
complete examination of the FISCU.

NCUA examiners primarily monitor the financial condition and progress of FISCUs
by reviewing SSA examination reports, Call Reports, and FPRs. In reviewing SSA
reports, NCUA‟s concerns include whether:

        The SSA examiners adequately addressed material risks within the FISCUs;

        The credit union understands the seriousness of the risks; and

        An agreement or plan exists for resolving unacceptable risks in a timely
         manner.

Objectives, Scope, and Methodology

We performed this MLR as required by section 216 of the Federal Credit Union Act,
12 U.S.C. 1790d(j) for Clearstar Financial Credit Union. Section 216(j) of the FCU
Act provides that the Inspector General must conduct a review when the NCUSIF
has incurred a material loss. For purposes of determining whether the fund has
incurred a loss that is “material,” a loss is material if it exceeds the sum of:

        $10,000,000;11 and

        An amount equal to 10 percent of the total assets of the credit union at the
         time at which the Board initiated assistance under Section 208 or was
         appointed liquidating agent.

The objectives of the MLR were to:

        Determine the causes of the Credit Union‟s failure and any material loss to
         the NCUSIF;

        Assess NCUA supervision of the institution, including implementation of the
         Prompt Corrective Action requirements of Section 208 of the FCU Act; and

        Make appropriate recommendations to prevent future losses.

To accomplish our review, we conducted fieldwork at the NCUA‟s Region I office in
Albany, New York, and conducted interviews of NCUA and NFID officials and


11
   On July 21, 2010, the President signed into law the Wall Street Reform and Consumer Protection Act of 2010,
raising the threshold for future NCUA-OIG MLRs to $25 million.


                                                                                                             7
Material Loss Review – Clearstar Financial Credit Union
OIG-10-14

examiners. The scope of this review covers the time period from June 2004 to
September 2009.

To determine the cause(s) of Clearstar‟s failure and assess the adequacy of NCUA‟s
supervision we:

      Prepared a chronology of examination scope and procedures, comments, and
       corrective actions.

      Reviewed exam files and Credit Union Board minutes.

      Reviewed external audit findings and follow-up procedures.

      Conducted interviews with NCUA and NFID examiners involved at various
       levels in the examination process.

      Reviewed policies and procedures included in examination files related to
       loan quality, investment quality, liquidity management, and earnings.

      Reviewed NCUA and Regional rules, regulations, and guidelines for Region‟s
       V & I.

      Reviewed NCUA Call Reports, Financial Performance Reports, and
       supervision as it relates to Clearstar.

We used computer-processed data from NCUA‟s Automated Integrated Regulatory
Examination Software and NCUA online systems. We did not test controls over
these systems. However, we relied on our analysis of information from management
reports, correspondence files, and interviews to corroborate data obtained from
these systems to support our audit conclusions.

We conducted this audit from March through September 2010 in accordance with
generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on
our audit objective. We believe the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




                                                                                     8
Material Loss Review – Clearstar Financial Credit Union
OIG-10-14

Results in Detail

We determined that Clearstar Financial Credit Union management and Board of
Directors contributed directly to the Credit Union‟s failure. Further, we determined
that the Nevada SSA and the NCUA examiners could have reduced the loss to the
NCUSIF had they adequately assessed and more aggressively pursued resolution to
issues related to the Credit Union‟s high credit risk and concentration of new and
used vehicle loans.

A. Why Clearstar Financial Credit Union Failed

Management‟s inadequate risk management and lack of Board oversight led to
Clearstar‟s failure. Management of Clearstar adopted strategies that created a high
level of risk, particularly related to concentration and credit, without the necessary
risk management policies and procedures to monitor and control these risks.
Clearstar charged off in excess of $9 million in loans between July 2007, and
September 2009. The magnitude of these charge offs was a significant factor in the
Credit Union‟s failure.

Clearstar‟s Board and management focused on growing the loan portfolio without an
apparent understanding of credit and concentration risk in that portfolio. In order to
accelerate growth, liberal credit policies, minimum underwriting standards, and
excessive loan modifications were approved and implemented. This resulted in the
Credit Union‟s loan portfolio becoming increasingly more risky as higher risk loans
were originated. A large portion of the loans originated between 2004 and 2008
were through an indirect loan program in partnership with new and used automobile
and recreational vehicle (RV) dealers. The underwriting standards employed by the
Credit Union allowed high loan to values (LTV) and attractive loan rates for
borrowers with low Fair Isaac Corporation (FICO) scores.12 The high risk nature of
the loan portfolio was generally not understood, as evident in the 2008 exam, which
noted that indirect auto loans had grown to $52 million and included approximately
$11 million of subprime loans.

Chart A (below) provides the percentage breakdown of the over $9 million of loans
charged off by the Credit Union from July 2007 through September 2009 by loan
type, and shows that a significant portion was related to new and used vehicle loans.



12
   A “FICO score" is a method of measuring an individual's creditworthiness. A FICO score is a quantification of
a variety of factors in an individual's background, including a history of default, the current amount of debt, and
the length of time that the individual has made purchases on credit. A FICO score ranges between 350 and 850.
In general, a score of 650 is considered a "fair" credit score, while 750 or higher is considered "excellent." A
FICO score is a convenient way to summarize an individual's credit history and is included in a credit report. The
term comes from the Fair Isaac Corporation, which created the system.


                                                                                                                 9
Material Loss Review – Clearstar Financial Credit Union
OIG-10-14

Chart A


                            Clearstar Charge-off Distribution
                           July 2007 through September 2009


                                     Other Loans
                          Unsecured       17%
                            Loans
                             12%                   Indirect Auto
                                                       Loans
                                  Direct vehicle
                                                        53%
                                      Loans
                                       18%




              Source: Clearstar Board Packets

Based on our procedures, we determined Clearstar management:

      Created unnecessary credit risk through weak underwriting standards that
       included the use of much more liberal credit grading than generally accepted
       industry standards would indicate, and

      Created concentration risk by allowing new and used vehicle loans to account
       for a large portion of its total loans.

We believe Clearstar‟s Board placed a heavy reliance on management to effectively
operate the credit union and appeared too compliant and trusting, particularly of the
CEO, who demonstrated a lack of understanding of the risky nature of the lending
strategies he advocated. We found no evidence in Clearstar‟s minutes or in its
Board packets of diligent risk management and monitoring processes that would
enable an adequate understanding or control of risks. Additionally, as new
strategies were adopted and executed, such as the branch expansion to Sparks,
Nevada, in 2007, due diligence on the associated risk and profitability was neither
discussed in the minutes nor noted by the examiners.

Credit Risk

Throughout the scope of our review, inadequate underwriting and lenient lending
practices had become prevalent and included excessive loan extensions and
renewals, LTV lending in excess of 100 percent, nonstandard borrower


                                                                                   10
Material Loss Review – Clearstar Financial Credit Union
OIG-10-14

classifications, faulty scoring matrices to evaluate borrowers, lack of adequate
collateral, and liberal lending policies that attracted subprime borrowers at a much
higher volume than management was aware. For example, in June 2006, the Board
approved loan policy changes broadening scoring for auto loans and allowing
interest only home mortgage loans. Loans for RVs were also liberalized to allow for
100 percent LTV, 240 month financing on RV loans over $100k, and as low as $100
minimum payments on small RV loans. In 2007, the Board approved a LTV of 100
percent for new and used motorcycles and jet skis, and not until December 2007
were real estate LTVs reduced from 100 percent to 85 percent on all borrowers.

NCUA and NFID examiners identified in the June 2008 examination that Clearstar
had weak underwriting standards. During the exit meeting with management,
examiners detailed the underwriting weaknesses they identified during their loan
review, which included:

      Granting extensions on delinquent consumer loans without adequate due
       diligence being performed to:
           o Evaluate the borrower‟s cash flow to repay the debt,

           o Assess the value of collateral, and

           o Support the rationale for the extension, considering the borrower‟s
             derogatory credit.

      Poor and inadequate underwriting policies related to indirect auto loans.

In the December 2008 joint examination by NFID and the NCUA, examiners noted
continued issues with underwriting and collection standards. In particular, even
though the Credit Union had revised its loan policy, examiners criticized
management for making an inordinate number of exceptions to the newly revised
policy, which completely voided the attempt to improve the Credit Union‟s credit risk.
Additionally, examiners noted in November 2008 that management had accelerated
the number of extensions being granted. Specifically, between November 2008 and
February 2009, management extended over $2.2 million in loans beyond maturity,
with over $1.0 million extended in February 2009 alone. Examiners concluded this
was an attempt to stem the increasing tide of loan defaults the Credit Union was
experiencing. However, in many instances the loans extended after November 2008
were to borrowers who were unemployed or had their income reduced to the point
where there was little evidence the borrower could repay their obligations once the
extension periods expired.

We determined Clearstar management did not perform proper credit risk analysis of
their loan portfolio. Although management developed credit scoring matrices used


                                                                                   11
Material Loss Review – Clearstar Financial Credit Union
OIG-10-14

as guidelines for granting credit, in most cases the matrices bore little resemblance
to any industry standard matrix and did not classify borrowers in accordance with
industry standard guidelines or NCUA guidance.

Additionally, examiners noted management classified borrowers based on FICO
scores that were inconsistent with industry standards. An analysis prepared by
examiners noted that management‟s classification matrix considered a borrower with
a FICO score greater than 650 as “A” paper, whereas industry standard
classification would have considered a FICO score greater than 720 as “A”. Table 1
(below) provides a complete analysis of the differences noted by examiners between
Clearstar‟s classifications and industry standard classifications.

Table 1

 Borrower Classifications – Clearstar vs. Industry Standards
                                           Indirect to
     Paper              Number of          Total Indirect                       Percent of
                                                                Total Loans
     Type               Loans              Loans                                Net Worth
                                           (Percent)
 Clearstar Classification
     Total A Paper      3194                  82.94%            $53,593,204.86 417%
     Total B Paper      497                   12.91%            $9,131,395.96   71%
     Total C Paper      106                    2.75%            $2,094,877.17   16%
     Total D Paper      54                     1.40%            $554,165.76     4%
     Total Loans        3851                100.00%             $65,373,643.75 509%
 Industry Standard Classification
     Total A Paper      1618                  42.02%            $24,933,578.29 194%
     Total B Paper      931                   24.18%            $16,370,319.94 127%
     Total C Paper      809                   21.01%            $14,884,124.17 116%
     Total D Paper      493                   12.80%            $9,185,621.35   72%
     Total Loans        3851                100.00%             $65,373,643.75 509%
Source: June 2008 Joint NFID and NCUA examination workpapers.

Most notably, Table 1 above shows the large discrepancy between the dollar
amount of the loans Clearstar management classified as “C” and “D” paper and the
dollar amount of the loans industry standards would classify as “C” and “D” paper,
$2.6 million and $24.1 million, respectively.




                                                                                       12
Material Loss Review – Clearstar Financial Credit Union
OIG-10-14

These issues, noted in the June 2008 DOR, persisted after this examination.
Examiners noted in the subsequent December 2008 joint examination that, although
management had revised their lending matrix, they were still not using industry
standards. As a result, examiners found validating the model difficult and a
complete analysis of credit risk impossible. As an alternative, examiners prepared
the following data, presented as Table 2 (below), segregating the Credit Union‟s loan
portfolio by FICO scores at December 31, 2008.

Table 2

 Credit Score Range                    Dollar Amount                         Life of Loan Default
                                                                             Rates13
 740+                                  $37,335,547                           0.60%
 720-739                               11,559,652                            1.90%
 700-719                               12,123,851                            2.80%
 680-699                               12,812,636                            4.30%
 660-679                               10,598,369                            6.70%
 640-659                               8,721,868                             10.20%
 620-639                               5,879,534                             13.60%
 600-619                               4,150,779                             18.00%
   Sub Total                           $103,182,236
 580-599                               2,259,855                             21.10%
 560-579                               1,880,743                             26.30%
 540-559                               1,696,770                             31.50%
 520-539                               1,876,970                             38.70%
 500-519                               1,546,861                             47.50%
 < 500                                 13,250,726                            57.30%
   Sub Total                           $22,511,925
 Total                                 $125,694,161
Source: December 2008 Joint NFID and NCUA Examination Overview

As highlighted in Table 2 above, examiners determined approximately $22.5 million
(approximately 20 percent) of Clearstar‟s loan portfoilo had credit scores of less than
600, with a probability of default ranging from 21 to 57percent. The risk inherent in
low credit scores, further compounded by weak underwriting and the lack of
adequate collateral, resulted in very high deficiency balances, which were ultimately
charged off and further reduced the Credit Union‟s capital.

Clearstar management‟s liberal underwriting standards and inconsistent borrower
classifications based on FICO scores, eventually increased the credit union‟s credit

13
  Default rates were obtained from NCUA Risk Alert 05-Risk-01: Specialized Lending Activities – Third Party
Subprime Indirect Lending & Participations.


                                                                                                              13
Material Loss Review – Clearstar Financial Credit Union
OIG-10-14

risk. Further, management did not employ adequate monitoring and reporting tools
to monitor credit risk. As a result, neither management nor the Board fully
understood the credit risk exposure that eventually grew to an unmanageable level.
This, coupled with the economic market dislocation that began in 2008, created a
financial situation where institutional failure was all but assured.

Concentration Risk

Historically, Clearstar was considered a well run credit union, consistently receiving
CAMEL composite code 2 ratings from the NFID and NCUA through June 2008.

As early as 2001, Clearstar‟s management focused the Credit Union‟s lending
activities on originating indirect vehicle loans. The program was aggressively and
intentionally grown with active support of the Board. At its height, the new and used
vehicle loan program accounted for more than 65 percent of the Credit Union‟s loan
portfolio, a much higher percentage than other credit unions of similar size.

Charts B and C (below) depict the composition of Clearstar‟s loan portfolio
compared to Peer14 for the period covering December 2004 to June 2009.

Chart B


                                    Loan Composition - Clearstar
        100%

         80%

         60%

         40%

         20%

          0%
                  12/31/2004       12/31/2005     12/31/2006     12/31/2007    12/31/2008         6/30/2009
                               New Vehicle                             Used Vehicle
                               1st Mortgage                            Other Real Estate
Source: 5300 Call Reports




14
     The peer group consisted of all credit unions with assets between $100 and $160 million as of June 30, 2009.


                                                                                                               14
Material Loss Review – Clearstar Financial Credit Union
OIG-10-14

Chart C


                             Loan Composition - Peer Average
     100%

       80%

       60%

       40%

       20%

       0%
             12/31/2004       12/31/2005   12/31/2006   12/31/2007     12/31/2008   6/30/2009
                          New Vehicle                          Used Vehicle
                          1st Mortgage                         Other Real Estate
Source: 5300 Call Reports.

As shown in Charts B and C, Clearstar invested a much larger portion of their loan
portfolio in new and used vehicle loans than did the peer group. Specifically, used
vehicle loans were nearly double that of the peer group. Additionally, in the June
2008 joint NFID and NCUA examination, examiners noted that approximately 34
percent of the indirect vehicle loan portfolio was considered subprime. Also,
examiners noted the following elements regarding the indirect and direct vehicle loan
portfolio:

       Lending policy that allowed high LTV on indirect auto loans, up to 135
        percent,

       Excessive extension and renewal practices,

       Weak and understaffed collection efforts that caused collections to occur very
        slowly further eroding the value of the underlying collateral, and

       Nonstandard classifications of borrower grades. For example, borrowers with
        at least a 650 FICO score were “A” paper, while industry standards would
        dictate “A” paper as a FICO score of 720 and above.

This high concentration of one particular loan type left the Credit Union highly
exposed to the economic market dislocation that began in 2008 and ultimately was a
contributing factor in the failure of Clearstar.



                                                                                                15
Material Loss Review – Clearstar Financial Credit Union
OIG-10-14

B. Nevada State Supervisory Authority and NCUA Supervision of Clearstar
   Financial Credit Union

We determined that examiners did not adequately assess nor aggressively pursue
resolution of critical risks created by Clearstar management‟s high risk strategies
related to loan concentration and credit quality. Further we believe that NCUA
processes impeded detection and effective enforcement of corrective actions.

The rapid decline of Clearstar is noted on Table 3 (below). The first two exams of
the Credit Union in our scope period of 2004 - 2009 resulted in a CAMEL composite
2 rating indicating strong performance. However, the Credit Union quickly
deteriorated in the subsequent examination 18 months later to a CAMEL composite
4 and then to a CAMEL composite 5 in the final joint state/NCUA exams as of
December 31, 2008, as detailed in the following table.

Table 3

 Credit Union                  June-04      Dec-06        June-08       Dec-08
 Examination Dates
 Contact Type                  State 11     Joint 11&26   Joint 11&26   Joint 11&26

 CAMEL Composite                   2              2            4             5

 Capital/Net Worth:                2              1            4             5
 Asset Quality:                    2              2            4             5
 Management:                       2              2            4             5
 Earnings:                         2              2            5             5
 Liquidity/Asset Liability
                                   2              2            4             4
    Management (ALM):

Based on our review of these examination reports and supporting workpapers, we
determined that certain NCUA exam processes could be strengthened that would
serve to limit exposure for the NCUSIF, as follows:

Examination Findings Repeated and Unresolved

We determined that examiners identified the following critical deficiencies and risky
practices in the 2004 exam that went unresolved by management and eventually led
to the demise of the Credit Union:

      High charge-offs with no real plan of how to reduce them, nor an expectation
       that they would decrease in the short term. Examiners further noted that
       charge offs were more than twice that of peers.


                                                                                      16
Material Loss Review – Clearstar Financial Credit Union
OIG-10-14



      Improvement needed in underwriting processes. Examiners noted the high
       credit risk contained in the indirect loan portfolio and recommended
       improvements in policies and procedures. External auditors were engaged by
       the Credit Union to perform quarterly loan reviews to remedy „serious control
       deficiencies‟ reported to the Board on March 31, 2004.

      High concentrations in the indirect auto lending program. Examiners noted
       poor quality loans from dealerships occurred in the past and that these loans
       currently made up more than 50 percent of the loan portfolio.

      Allowance for Loan and Lease Losses (ALLL) policy that did not match
       current methodology and practice. Examiners noted that the ALLL was
       underfunded and management had not made needed adjustments in a timely
       fashion.

      Liquidity declined significantly since the last exam from approximately 12
       percent to 7 percent due to loan growth.

      Errors on the 5300 Call Reports.

      ALM monitoring deficiencies.

We determined that examiners appropriately noted these concerns in 2004 but did
not document any follow up nor did they prepare a DOR for those issues considered
to be a safety and soundness concerns.

According to the NCUA Examiners Guide, a DOR is used to outline plans and
agreements reached with officials to reduce areas of unacceptable risk. An area of
unacceptable risk is one for which management does not have the proper structure
for identifying, measuring, monitoring, controlling, and reporting the risk.

In our opinion, the serious and continuing nature of these issues indicates that
examiners should have issued a DOR for the 2004 exam. The 2006 exam reported
that these issues and trends were continuing, but again there was no mention of
them in the 2006 DOR, and, as a result, management did not focus on resolving
these problems. Further, there was no indication of tracking or monitoring efforts to
address these issues by examiners or management. Ultimately, this less than
aggressive pursuit to resolve these critical issues contributed to the Credit Union‟s
failure.

NCUA‟s total analysis and risk-focused examination process guides examiner
judgment by providing the requisite and appropriate tools and guidance with which to


                                                                                    17
Material Loss Review – Clearstar Financial Credit Union
OIG-10-14

assess the safety and soundness of credit union operations and any risk to the
NCUSIF. Although examiners used these processes to adequately identify the
critical deficiencies and risky practices created by Clearstar‟s indirect auto lending
program early on, we believe examiners did not view these concerns as issues that
required a DOR to resolve. We believe NCUA management should establish a
renewed emphasis to examiners on the importance of understanding that DORs are
to be developed to outline plans and reduce areas of unacceptable risk, with
particular emphasis on the types of safety and soundness concerns that were clearly
present in the years leading up to Clearstar‟s failure. Further, we caution NCUA
management that any discussion with examiners on DORs would be remiss if DOR
follow-up in subsequent examinations were not also emphasized.

Recommendation

This finding highlights the importance of examiners providing sufficient evidence to
document the results of examinations by exposing a weakness in the area of
examination documentation; an issue we believe requires NCUA management‟s
attention. Therefore, we are making the following recommendation.

We recommend the Director, Examination and Insurance:

   1. Require examiners to document and retain all documentation on significant
      findings from prior examinations until such time the finding is satisfactorily
      remediated.

Management’s Comments

NCUA Management agreed with our recommendation. Management indicated
guidance currently exists to support this requirement and recent directives to staff
reinforce these issues. Management also stated that examiners document and
electronically store exam findings and DORs in AIRES files. The AIRES DOR
module along with the DOR reports module, help NCUA and the state supervisory
authorities to document and monitor problem resolution.

Evaluation of Management’s Comments

Management‟s comments are responsive to the recommendation.




                                                                                       18
Material Loss Review – Clearstar Financial Credit Union
OIG-10-14

Quarterly Monitoring of Call Reports Needs Improvement

We determined examiners did not adequately monitor Clearstar‟s Call Reports to
identify important trends and issues that were occurring within the credit union.
Clearstar achieved a CAMEL composite 2 rating in both the June 2004 and
December 2006 examinations, but dropped to a CAMEL composite 4 in the June
2008 examination and eventually a CAMEL composite 5 just six months later. As a
result, Clearstar‟s dramatic decline was not detected by examiners soon enough to
make changes that could have minimized the losses.

As part of NCUA‟s examination process, credit unions are required to file Call
Reports on a quarterly basis. Quarterly monitoring helps examiners identify
important trends and issues such as increasing delinquencies, charge offs, and
operating losses; all issues we believe should have been identified in the June 2004
and December 2006 examination reports. In fact, not only did examiners not
adequately detect and communicate these deteriorating trends and issues in the two
previously noted examinations above, they made no contact with Clearstar until the
next regularly scheduled examination in June 2008, eighteen months later, when the
economic market dislocation had become evident.

Although we acknowledge examiners have access to numerous off-site monitoring
tools that provide various red flags and other measures developed to highlight
potential risk such as Call Report edits, historical warnings within the Credit Union
Online system, Financial Performance Reports, online National Risk Reports, and
regional risk monitoring tools, we believe these tools are of little use if examiners
make no contact between examinations, as was the case with Clearstar.

In addition, despite NCUA budgeting time each quarter for examiners to review Call
Reports and off-site monitoring tools (one hour per state chartered credit union and
two hours per federally chartered credit union), one NCUA examiner told the OIG
that it is their belief that examiners are not allocated sufficient time to appropriately
analyze the quarterly 5300 Call Reports.

Finally, we believe the questionnaire and checklists supporting the examiners‟
quarterly review of 5300 Call Report data does not sufficiently document issues
identified or the analysis performed.

Observation

One method NCUA examiners use to monitor the financial condition and the
progress of FISCUs are through 5300 Call Reports. However, we believe
improvements could be made in the off-site monitoring process if NCUA
management were to develop and issue a national instruction to all regional offices
placing more emphasis on quarterly monitoring of 5300 Call Reports. The


                                                                                       19
Material Loss Review – Clearstar Financial Credit Union
OIG-10-14

instruction should outline the process and include specific monitoring triggers to
more easily „red flag‟ areas to be investigated, as well as provide a specific time
allocation. In addition, we believe any newly developed national instruction should
include the requirement that examiners document and retain the specific procedures
and analysis performed during their quarterly review of 5300 Call Reports.

Examination Documentation and Review Processes Appear Inconsistent

Although each NCUA Regional office has its own policies and practices, examination
files lacked consistent documentation of sampling methods, sample sizes, and
overall risk assessment procedures performed during examinations. Also, there was
little or no evidence of routine exam workpaper review.

We determined that NCUA has no required documentation standards at the national
level for workpapers related to risk assessments and sample sizes. Instead, each
Regional office has its own procedures, which can create procedural differences that
unfortunately in the case of Clearstar, we believe may have potentially contributed to
an inconsistent CAMEL composite rating. Specifically, Region V rated Clearstar a
CAMEL composite 2 during the December 2006 examination. At the next
supervisory contact in June 2008, examiners downgraded the credit union to a
CAMEL composite 4. When Region I took over supervision of Clearstar due to
restructuring, examiners further downgraded the Credit Union to a CAMEL
composite 5 during the December 2008 examination. We believe this rapid decline
in CAMEL composite ratings from a 2 to a 5 in just a two year period indicates that
any „red flags‟ that may have been present during the December 2006 examination,
were not properly assessed, thus leaving open the possibility that the resulting
CAMEL composite 2 rating may not have been appropriate.

Our review also determined examiner conclusions in the December 2006 and June
2008 examinations were not consistent. For example, in the December 2006
examination, examiners commented that Clearstar management was “capable”
when there were obvious and serious continuing concentration, underwriting, and
liquidity issues. At the next supervisory contact in June 2008, examiners noted the
same management team‟s “lax oversight.” Also, in the Examination Overview
section of the June 2008 Examination Report, examiners noted that Clearstar
management:

       ”manages its liquidity position effectively” and that “ALM policies
       and procedures appear adequate at this time” but later in the
       same report, noted that these same policies were “currently
       inadequate”.

In our opinion, it appears the inaccurate conclusions drawn on management‟s
competence, as well as the inconsistent evaluation of Clearstar‟s ALM policies and


                                                                                   20
Material Loss Review – Clearstar Financial Credit Union
OIG-10-14

procedures are strong indicators that examination workpapers were not consistently
reviewed. We believe these inconsistencies should have been detected and
corrected prior to issuance of the Report of Examination to Clearstar management.

Finally, our review determined that a lack of workpaper standardization and policies
between regions allows for inconsistent administrative policy and resulting CAMEL
ratings. Specifically, we found informal enforcement actions, at a minimum, appear
to have been warranted during the December 2006 examination where Clearstar
received a CAMEL composite 2 and a DOR noting only regulatory compliance
issues.

Observation

One goal of NCUA‟s risk-focused supervision process is to enable examiners to
streamline workpaper documentation to support areas of risk while improving the
quality of workpaper documentation and support for conclusions. NCUA guidance
indicates that examiners must retain a copy of all workpapers, schedules, checklists,
forms, and examiner-prepared notes used to support their conclusions. Although
Supervisory Examiners (SEs) are currently required to read all reports prepared by
examiners and document their evaluations of a limited number of reports for each
examiner in their group, the supervisory efforts of Clearstar highlights
inconsistencies over examination documentation and a lax review process that
warrants consideration of a documented secondary review by the SE of the final
CAMEL ratings. A required and documented secondary evaluation prior to issuance
to credit union management would ensure examination evidence gathered is
sufficient, competent, and relevant, to reasonably support the CAMEL ratings.

Concentration and Loan-to-Value Guidelines and Processes were Inadequate

Our review determined examiners did not clearly identify and analyze Clearstar‟s
loan concentrations. In addition, the risk associated with concentrations was not
adequately considered in establishing the CAMEL ratings during Clearstar‟s
examinations. We further noted that LTV requirements were not well defined or
consistently applied.

Examiners noted in June 2008 that concentration in vehicle loans was more than 50
percent of the loan portfolio and that LTV for some auto loans exceeded 135
percent. The Credit Union Board approved a lending policy in 2007 that included
100 percent LTV on recreational vehicles, new and used motorcycles, and boats. In
our opinion, NCUA guidance on loan concentrations and loan to value ranges is
lacking. An NCUA official noted the need for explicit LTV guidelines “with teeth” to
assure compliance.




                                                                                    21
Material Loss Review – Clearstar Financial Credit Union
OIG-10-14

Although NCUA recently emphasized to credit unions‟ the need to be aware of
concentration risk (identifying, monitoring, and controlling) through issuance of Letter
to Credit Unions,15 examiners must also be aware when concentration risk presents
a safety and soundness concern.

We believe the flexibility credit unions have in developing their lending policies and
risk profile related to concentrations and allowable LTV on loan products needs to be
better scrutinized by examiners when concentration risk is identified. In Clearstar‟s
case, aggressive and competitive marketing just prior to the economic market
dislocation and subsequent recession resulted in excessive risk taking with dire
consequences.

Observation

Examiner guidelines state that indicators such as concentration activities can serve
as triggers of changing risk and possible causes for future problems. Based on loan
concentrations not adequately identified and considered in Clearstar‟s loan portfolio,
we believe the risk-focused examination process would benefit from the
development of a stronger more specific process to better identify, analyze, and
monitor loan concentrations during examinations, as well as between examinations.
Finally, and most importantly, NCUA management should consider whether to
propose and/or change regulatory guidance to establish limits or other controls for
concentrations that pose an unacceptable safety and soundness risk and determine
an appropriate range of examiner response to high risk concentrations. The
development of asset concentration guidelines would assist both examiners and
credit unions in identifying and monitoring the associated risks.

Risk Management, Management Competency, and Due Diligence Practices Were
Lacking

We found no formal supporting documentation to determine how examiners
analyzed Clearstar management‟s risk management practices, competence, and
due diligence over new and/or fast growing programs.

We found minutes of Clearstar‟s Board meetings were general in nature and did not
fully explain risk management practices and due diligence performed when a new
product was proposed, or a program was growing rapidly. In the case of Clearstar‟s
“Payday” loan product, approved by the Credit Union Board in May 2006, the only
documented Board concern was related to Clearstar‟s image, and not the risk or
profitability to the credit union. We also found no mention of this new “Payday” loan
product noted in examination files.


15
     Letter to Credit Unions 10-CU-03, “Concentration Risk” issued March 2010.


                                                                                     22
Material Loss Review – Clearstar Financial Credit Union
OIG-10-14

In addition, we determined management proposed liberal loan policies that were
adopted by the Board in 2007 and 2008. These loan policies accelerated the high
concentration and delinquency trends. These lending policies also provided for
generous credit scoring, interest only home loans, $100 minimum payments for
small RV loans, as well as 100 percent LTV and 240 month financing on large boats
and RVs.

Management competence can be measured by the policies adopted, loan products
developed, and the risk management practices incorporated, as well as the financial
results achieved. Examiners can gather further insight through interviews, which
should be documented. We found no evidence in examination files, however, of a
focused assessment on management‟s competence and risk management
practices, both of which factored significantly in the failure of Clearstar. Further, we
found no documentation related to any kind of due diligence review of new products,
policies, and strategies implemented by Clearstar management, a critical aspect of
successful operations.

Observation

Evaluating the quality and the effectiveness of management is an important part of
the total analysis process and a major examination objective. Examiners evaluate
the quality of management by determining the effectiveness of the Board, the
committees, and operational management. Effective management includes
providing adequate support, planning, and oversight when the credit union enters
new business ventures, or begins offering a new product and/or service. In addition,
management must perform due diligence to ensure that products and services
coincide with the credit union‟s overall risk profile.

Although NCUA has issued numerous Letters to Credit Unions over the past 12
months to address higher risk issues and risk management processes, our review
found that Clearstar management engaged in very limited discussions over its risk
management practices in addition to performing little or no due diligence over its
new indirect auto lending program. As a result, we believe NCUA management
should consider establishing a renewed emphasis on evaluating management‟s due
diligence over new or fast growing programs, as well as other areas of emphasis,
with particular attention to the risk the new program or new area may pose to the
credit union‟s safety and soundness.




                                                                                     23
Material Loss Review – Clearstar Financial Credit Union
OIG-10-14

Appendix A – Examination History

The following details Nevada SSA and NCUA supervision contact conducted from
2004 through the final contact June 30, 2009, for Clearstar Financial Credit Union.
The information provided is limited to key findings and associated Documents of
Resolution with concentration, credit, and liquidity risk.

Effective date: June 30, 2004
Code 11 Joint Exam
CAMEL Composite Rating: 2

      Examiners indicated that charge offs remain high with no evidence when they
       would decrease, and that overall credit risk remains high.
      Examiners expressed loan quality concerns and noted deficiencies in the
       indirect loan program resulting in high losses.
      Examiners determined that liquidity had declined from 11.8% at March 31,
       2003, to about 7% at June 30, 2004, due to high loan growth.
      Examiners noted that ALLL policy changes, better ALM monitoring, and
       control practices were needed.
      Examiners concluded that management is knowledgeable and experienced.

DOR – none issued but Examiner Findings report noted improvement needed for
quality control and risk concentration limits on indirect loans, ALLL underfunding of
$187k, errors on the 5300 reports, and the need for more frequent ALCO meetings
and a Liquidity Policy.



Effective date: December 31, 2006
Code 11 Joint Exam
CAMEL Composite Rating: 2

Regarding Credit Risk, examiners determined that delinquency ratios remain stable
and under control; however, verification of employment or income is not required for
members with a FICO score of over 680.

Regarding Liquidity, examiners recognized:
   As of December 31, 2006, cash plus short term investments decreased to an
     asset ratio of 6.65% from 8.01% at December 31, 2005, and significantly
     below peer of 14.84%, primarily due to high loan growth.
   Clearstar is concentrated in loans and deposits, and is nearly 100% loaned
     out.
   The Credit Union has an ALM policy and liquidity policy that is currently


                                                                                      24
Material Loss Review – Clearstar Financial Credit Union
OIG-10-14

       inadequate with a policy limit of 2%, well below the state and federal
       requirements of 5-6%. As of September 30, 2006, Clearstar‟s actual ratio
       was 1.65%. In the summary section of the Examination Overview, it was
       inconsistently noted that the ALM policy was adequate.

Regarding Management and Strategy, examiners noted that management has
demonstrated the ability to implement goals and objectives so successful
implementation of strategic initiatives is likely.

DOR – issues related to regulatory compliance only.



Effective date: June 30, 2008
Code 11 Joint Exam
CAMEL Composite Rating: 4

This exam reported a marked change in the condition of the Credit Union with
serious concerns about its future viability resulting in a capital-based prompt
corrective action (PCA) and a CAMEL 4 rating.

Regarding Credit Risk, examiners noted that asset quality has deteriorated and that
34% of the indirect portfolio is considered subprime. Loans were not being promptly
charged off, the ALLL methodology is faulty and an adjustment to the ALLL account
is needed of $2.8 million. Loan policy was liberal, allowing up to 135% on indirect
vehicle loans. Concerns were also raised related to excessive extension and
renewal practices, nonstandard borrower classifications and grading and insufficient
collateral.

Regarding Liquidity, examiners recognized that high overhead associated with the
new branches, growing loan defaults, and high yielding CD‟s have caused
measurable earnings and liquidity pressure. Liquidity had declined to under 4% as
of December 31, 2007, and high unfunded commitments. ALM practices as well as
Liquidity policies and procedures were deemed inadequate. Additionally, Clearstar
was in violation of a Nevada State statute requiring at least 5% of member accounts
be held in liquid assets.

Examiner comments regarding management were severe and included lax Board
oversight, inadequate lending and underwriting practices, dramatic deterioration of
asset quality, an unwillingness to charge off loans timely, and ineffective collections,
resulting in earnings that were „critically deficient‟.




                                                                                     25
Material Loss Review – Clearstar Financial Credit Union
OIG-10-14


DOR – The DOR was extensive and examiners required Clearstar to take the
following actions by September 30, 2008, or sooner:

Regarding Credit Risk,
   Develop quarterly target goals for delinquencies and net charge off ratios.
   Improve collections to meet the quarterly goals outlined above.
   Review charged-off loans to identify weaknesses in underwriting
     and/or collections.
   Evaluate the real estate portfolio for potentially high risk loans.
   Realign the tier structure on consumer loans to more closely adhere to
     industry standards.
   Establish portfolio risk limits for “C” and “D” borrowers after revising the tier
     structure in accordance with stricter standards.
   Reduce or eliminate indirect lending until all provisions in this Document of
     Resolution concerning consumer lending are fully implemented, and it is safe
     and sound to proceed with such lending.
   Restrict the loan to values on indirect loans to not exceed 100%.
   Revise the Loan Policy to include specific loan underwriting Guidelines.
   Establish an internal loan audit program to monitor new loans.
   Review loan extension and refinancing processes and develop procedures
     and tracking mechanisms.
   Track due date changes and term extensions for all delinquent loans.
   Make adjustments to increase the ALLL by $2,818,233 to provide for full and
     fair disclosure requirements and charge off the $905,439 in nonperforming
     loans identified in this examination.
   Ensure that nonperforming loans and deficiency balances are charged off in
     at timely manner.
   Adjust your historical loss ratios for environmental factors.
   Ensure all future repossessions are booked at the fair market value of the
     collateral less costs to sell at the time of repossession.

Regarding Liquidity Risk:
   Restore liquidity risks to a safe and sound level.
   Revise your liquidity policy to address at a minimum the issues addressed in
     the Examination Overview.
   Improve earnings performance.
   Develop a plan to increase net worth to at least 7% by June 30, 2009.

Regarding Management and administrative oversight:
   Follow generally accepted accounting principles related to the allowance and
     charge-off adjustments, charge-off loans timely, adjust historical loss ratios



                                                                                   26
Material Loss Review – Clearstar Financial Credit Union
OIG-10-14

       for environmental factors, and ensure all future repossessions are booked
       properly.
      Include troubled debt restructurings on the 5300 report.
      Submit the financial reports monthly to NCUA and Nevada FID
      Provide the Board of Directors with a copy of the monthly status report on
       compliance with the examination report.



Effective date: December 31, 2008
Code 11 Joint Exam
CAMEL Composite Rating: 5

Examiners noted a continued rapid deterioration of Clearstar‟s financial condition,
marked by high loan and operating losses, leaving it „significantly undercapitalized‟.

Regarding Credit and Liquidity risk, examiners noted:
   High exposure to subprime loans and rising loan defaults, poor underwriting
     and insufficient collateral. Nearly 20% of loans were determined to be
     subprime with $11 million of the $52 million indirect loan portfolio made to
     borrowers with a credit score below 600.
   Exceptions to loan policy were frequent and new scoring matrices were not
     standard in the industry.
   Extensions and modifications had increased, some to members who were
     unemployed or had no real ability to repay.
   Collections were outsourced but effectiveness monitoring was lacking.
   Deficient liquidity management program with insufficient forecasting and
     monitoring tools.
   No integrated risk management processes were present.

Examiners determined that management oversight was weak, including their failure
to monitor and control credit risk as well as their decision for capital expansion,
which increased the drain on cash. Huge net operating losses generated by
management‟s policies and lack of oversight factored significantly in Clearstar‟s
failure.

Examiners concluded that Clearstar will likely not survive and suggested a merger
as the only real option.




                                                                                     27
Material Loss Review – Clearstar Financial Credit Union
OIG-10-14


DOR – The DOR was extensive and examiners required Clearstar to develop a
Merger Plan and a New Worth Restoration Plan, and also to take the following
actions by June 30, 2009, or sooner:

Regarding Credit Risk,
   Amend the ALLL Calculation Work Sheet to reflect proper stratification of the
     indirect loan portfolio for the months prior to June 2008.
   Prepare a trending analysis worksheet/graph for delinquency and charge offs.
   Adjust the collateral in process repo report within your ALLL Worksheet.
   Establish an environmental loss factor for the extension/modification loan
     pool.
   Establish environmental loss factors to address credit risk.
   Provide the trending analysis to ALCO and the Board of Directors for review
     and inclusion in the minutes.
   Review all outstanding lines of credit on HELOCs.
   Review all outstanding unsecured lines of credit and reduce or revoke lines
     where borrowers exhibit deterioration of creditworthiness.
   Develop a validation process for the Fast Start Model to determine if the
     current scoring tiers and pricing is accurately reflecting the level of credit risk.
   Eliminate multiple credit scoring models (matrix) currently in use for different
     loan products. Use one credit scoring matrix for all loans and continue to use
     FICO classic scores concurrently as a “second opinion” in assessing credit
     risk.
   Use a validation chart to assess and determine scoring ranges in the pricing
     matrix so that approval and pricing is commensurate with the level of credit
     risk.
   Do not approve an extension for a loan if the member is more than 30 days
     past due as per your lending policy.
   Ensure that the member is gainfully employed prior to approving an extension
     or modification. Verify the member‟s income and document the debt ratio
     analysis in their loan file.
   Document concise and supportable reasons in writing for any loan extensions
     or modifications you approve.
   Implement controls that will identify any loans that receive a second extension
     or modification within a 12-month period.

Regarding Liquidity risk;
   Amend the liquidity policy to clearly define responsibilities to ensure
     accountability.
   Develop a written net cash flow analysis and establish a monthly net cash
     flow target.
   Evaluate available liquidity contingency resources and prioritize.


                                                                                      28
Material Loss Review – Clearstar Financial Credit Union
OIG-10-14


      Determine if resources exist to meet projected liquidity needs under current
       and stressed economic conditions.

Regarding Management and Board oversight;
   Provide ALCO and the Board of Directors with a comprehensive log.
     of all modifications and extensions approved each month as well as the
     collections log provided by the GILA Group.
   Prepare a cost/benefit analysis of using GILA Group vs. bringing collections
     in-house.
   Update the collection policy.
   Cease granting Member Business Loans in accordance with NCUA R & R
     Part 702.202(a) (4) as a result of being “undercapitalized.”
   Review and revise your Lending Policy to provide for safe, sound, and
     consistent lending practices that addresses all loan products.
   Create and utilize a comprehensive checklist or some format for quality
     control review of all loans granted.
   Integrate balance sheet risk management with your strategic and financial
     planning.
   Amend the existing ALCO agenda to ensure all key business activities
     effecting Clearstar‟s risk exposures are consistently reviewed.
   Conduct a thorough review of ALM model assumptions to ensure earnings
     simulation and net economic value (NEV) reasonably assess Clearstar‟s
     potential risk exposures.
   Ensure all general ledger account reconciliations contain the source
     document to which the account reconciled.
   Maintain a file of all supporting documentation to verify the NCUA 5300 Call
     Report.
   Provide the Regulator (DIF) and Insurer (NCUA) with quarterly progress
             reports in addressing the corrective actions prescribed in the
     December 31, 2008, joint examination report.
   Develop a merger plan.
   Develop a net worth restoration plan as required by Part 702.206 of
     management by the NCUA Rules and Regulations.



Effective date: June 30, 2009
Code 23 Offsite Supervisory Exam

The purpose of the contact was to review the financial condition, loan loss provision
and compliance with the Cease and Desist order issued by NFID on April 15, 2009.
    Examiners noted continued deterioration of Clearstar financial condition.
    Examiners recognized that loan losses continued to be high and were


                                                                                      29
Material Loss Review – Clearstar Financial Credit Union
OIG-10-14

       depleting reserves.
      Examiners calculated an ALLL adjustment that reduces net worth to „critically
       undercapitalized.‟

On September 25, 2009, NFID placed Clearstar into liquidation and NCUA Board
entered into a Purchase and Assumption agreement with Untied Federal Credit
Union.




                                                                                  30
Material Loss Review – Clearstar Financial Credit Union
OIG-10-14

Appendix B

MANAGEMENT’S COMMENTS




                                                          31
Material Loss Review – Clearstar Financial Credit Union
OIG-10-14




                                                          32
Material Loss Review – Clearstar Financial Credit Union
OIG-10-14




                                                          33
